                   ?                                         NATIONAL SCIENCE FOUNDATlON
                                                                 4201 WILSON BOULEVARD
                                                                ARLINGTON, VIRGINIA 22230
                            $.*;&(,




                                                --
    ~             *t-r.l"d..l'
                     ,+~ <  %*~
                                 v.,2
                                    :.,                              24 August 1998
                      rrsf,J:+.
                  .$L.,\,


    I
                  &,p971f?4b
                   .*+y, .
                    gn..*&v,&>:
                                      r
                                  L       *
                 OFFICE OF
             INSPECTOR GENERAL
            Memorandum


                                          To:   File
                                                I970300 16

                             From:

I
I
                  Through:
        "
              ,


                                                Special Agent-in-1
I



1


                      Subject:                  Resolution

            O n 17 March 1997                                   contacted 01G regarding documentation suggesting that an
            NSF SBIR PI was employed by two different companies

            t            operating out of the same address. After
            a ter interviewing- the PI and the companies' owners, we determined that the companies were
            owned and operated by the same individuals, and that the companies were not engaged in
            fraudulent or other improper activity. For this reason, this case is closed.
